            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
      STATE OF SOUTH CAROLINA
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2004

     December 2005   A-77-06-00002




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM

Date:   December 21, 2005                                                      Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject: Management Advisory Report: Single Audit of the State of South Carolina for the
        Fiscal Year Ended June 30, 2004 (A-77-06-00002)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of South Carolina for the Fiscal Year ended June 30, 2004. Our
        objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        The South Carolina State Auditor performed the audit. The Department of Health and
        Human Services (HHS) desk review concluded that the audit met Federal requirements.
        In reporting the results of the single audit, we relied entirely on the internal control and
        compliance work performed by the State Auditor and the reviews performed by HHS.
        We conducted our review in accordance with the Quality Standards for Inspections
        issued by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA Number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The South Carolina Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The South
        Carolina Vocational Rehabilitation Department (VR) is the South Carolina DDS’ parent
        agency.
Page 2 – Candace Skurnik


The single audit reported that:

1. The DDS could not locate documentation to support expenditures charged to the
   disability programs. The corrective action plan indicated that the DDS had no further
   jurisdictional responsibility for the claim since the case file was located at an SSA
   District Office (Attachment A, pages 1, 2, and 9).

2. DDS expenditures reported on the Schedule of Federal Financial Assistance (SFFA)
   did not agree with State agency accounting records. The corrective action plan
   indicated that actions would be taken to ensure that the SFFA is prepared in
   accordance with State requirements (Attachment A, pages 3, 4, and 10).

3. A vendor was reimbursed for medical evidence of record in excess of the invoiced
   amount. The corrective action plan indicated that internal control procedures would
   be implemented to ensure vendors are reimbursed the correct amount
   (Attachment A, pages 5, 6, and 11).

4. The State’s Cost Allocation Plan (CAP) contained incorrect cost allocation rates and
   incorrectly omitted allocable costs. The corrective action plan indicated that
   revisions to the CAP were completed and submitted to the cognizant agency for
   approval (Attachment A, pages 7, 8, and 11).

We recommend that SSA:

1. Ensure that the DDS implements procedures to maintain documentation to support
   expenditures.

2. Verify that the State took appropriate actions to ensure the SFFA is accurately
   prepared.

3. Ensure internal control procedures over vendor payments were strengthened.

4. Work with VR to ensure indirect costs charged to its programs are distributed in an
   equitable manner.

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Lawson. If you have questions contact Shannon Agee at (816) 936-5590.




                                                   S
                                                   Patrick P. O’Carroll, Jr.

Attachment
Attachment A
 Page 1 of 11
Attachment A
 Page 2 of 11
Attachment A
 Page 3 of 11
Attachment A
 Page 4 of 11
Attachment A
 Page 5 of 11
Attachment A
 Page 6 of 11
Attachment A
 Page 7 of 11
Attachment A
 Page 8 of 11
Attachment A
 Page 9 of 11
Attachment A
Page 10 of 11
Attachment A
Page 11 of 11
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
